No. 19-1039

 

In THE
Supreme Court of the United States

PENNEAST PIPELINE CoMPANY, LLC,
Petitioner,

v.

STATE OF NEW JERSEY, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF RESPONDENT
NEW JERSEY CONSERVATION FOUNDATION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
14,856 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Wilson-Epes Printing Co., Inc.
